                   Pay m e n t A ccuracy
                    Task For ce R e p or t:
                       SSI U n e ar n e d I n com e

E xe cutive            The Social Security Administration (SSA) has issued a self-
                       challenge to increase the Supplemental Security Income (SSI)
Sum m ary              payment accuracy rate to 96 percent by Fiscal Year (FY) 2002.
                       This action was prompted, in part, by the General Accounting
                       Office’s (GAO) 1997 designation of SSI as a high-risk program.1

                       The Payment Accuracy Task Force Initiative, created in 1996
                       through a cooperative effort between SSA and the Office of the
                       Inspector General (OIG), assists the Agency with meeting its
                       goal to improve payment accuracy. The Initiative is guided by
                       an Associate Commissioner-level Steering Committee. It
                       selects payment issues and charters intercomponent issue
                       teams to develop agency-wide recommendations for policy,
                       programmatic and operational improvements.

                       The Task Force has selected SSI unearned income for this, its
                       third review. To analyze sources and causes of SSI unearned
                       income payment errors, we gathered information from as many
                       sources as possible during our 120-day charter, from March 1
                       through June 28,1999. We assessed viability of prior SSA,
                       GAO and OIG recommendations; analyzed 216 FY 1997 Index
                       of Dollar Accuracy SSI unearned income deficiency case folders
                       and the related data base; and made 10 site visits to field offices
                       in California, Texas, and Maryland. During the site visits, we
                       met with 20 field office managers and 57 field office employees;
                       and, in the California field offices, we interviewed
                       16 SSI recipients. We sought additional input from over 30 key
                       contacts in various SSA components, members of our Task
                       Force Steering Committee, and our issue team’s SSI experts.




                       1
                        High Risk Series: An Overview, GAO/HR-97-1, February 1997;
                       Supplemental Security Income: Action Needed on Long-Standing Problems
                       Affecting Program Integrity, GAO/HEHS-98-158, September 1998.



Payment Accuracy Task Force – SSI Unearned Income                                    i
                       Find ings, Conce rns, and R e com m e n d ations
                       �	   Section I: The Payment Accuracy Issue Team
                            Recommends Changes to Improve SSI Unearned Income
                            Payment Accuracy

                            • Reinforce Reporting Responsibilities

                               Recommendation 1 -- Specific to SSI unearned income,
                               include a handout listing the types of unearned income in
                               the recordkeeper or print the list on the recordkeeper
                               folder itself.

                               In general, remind field offices of the Program Operations
                               Manual System (POMS) guidance for using and
                               distributing the recordkeeper folders and of the
                               reordering process.

                            •	 Provide Additional POMS Guidance About Gambling
                               and Lottery Winnings and Losses

                               Recommendation 2 -- Retitle the POMS section, Prizes,
                               as Gambling and Lottery Winnings and Other Prizes so
                               claims representatives (CR) can more easily locate
                               instructions about properly counting gambling/lottery
                               winnings.

                               Recommendation 3 -- Modify the Modernized
                               Supplemental Security Income Claims System (MSSIC)
                               Income Menu (IMEN) screen by adding parenthetical
                               information, which includes a reference to gambling and
                               lottery winnings, under “OTHER INCOME OR SUPPORT
                               NOT PREVIOUSLY MENTIONED.”

                               Recommendation 4 -- Modify the MSSIC Income Other
                               (IOTH) screen so that gambling and lottery winnings can
                               be listed under “TYPE RECEIVED.”

                            •	 Include the SSI Unearned Income Report and Prior
                               Payment Accuracy Task Force Reports in the Agency’s
                               SSI High-Risk Tracking Documents and Related Reports

                               Recommendation 5 -- Ensure that recommendations
                               from the SSI Unearned Income Report and prior
                               Payment Accuracy Task Force reports are included in the
                               Agency’s monthly SSI Initiatives Tracking Report,


Payment Accuracy Task Force – SSI Unearned Income                                ii
                                 subsequent SSI management reports, and other
                                 information systems related to SSI high-risk efforts.

                         �	    Section II: The Payment Accuracy Issue Team
                               Recommends Modifications for Two Recently Initiated
                               SSI High-Risk Activities That Address Unearned
                               Income Payment Errors

                              •	 Adapting the Unearned Income Portion of the April 1999
                                 Interactive Video Training for Virtual On-Line Training

                                 Recommendation 6 -- As a form of follow-up training,
                                 adapt the SSI unearned income portion of the April 1999
                                 IVT for on-line training via SSA’s Virtual Campus,
                                 http://training.ba.ssa.gov/ot/pages/training/.

                              •	 Pursuing Direct On-Line Access to State Child Support
                                 Enforcement Agency Records Rather Than Through the
                                 Federal Case Registry

                                 Recommendation 7 -- Seek direct on-line access to
                                 State child support enforcement (CSE) agency records
                                 on child support payments. The Office of Disability and
                                 Income Security Programs (ODISP), as the SSA lead
                                 component for SSI High-Risk and Information Exchange
                                 activities, should discuss with the Department of Health
                                 and Human Service’s (HHS) Office of Child Support
                                 Enforcement (OCSE) the sufficiency of existing laws to
                                 permit this type of direct electronic data exchange. If
                                 sufficient, then ODISP should request that HHS OCSE
                                 issue a guidance letter to the State CSE agencies to
                                 provide SSA title XVI CRs with on-line single query
                                 access to such records. ODISP should then request
                                 Operations to make access to CSE as one of the target
                                 agencies in its SASRO project.

                                 However, if existing laws are not sufficient, ODISP should
                                 request the Office of Legislative and Congressional
                                 Affairs (OLCA) to propose a legislative initiative to
                                 address any SSA or OCSE concerns.

                                 Recommendation 8 -- At a minimum, if SSA continues
                                 to pursue its current legislative proposal for access to the
                                 Federal Case Registry of Child Support Orders, the
                                 following addendum should be included: States should




Payment Accuracy Task Force – SSI Unearned Income                                   iii
                               be required to provide data on child support collections,
                               receipt, and distribution to the Federal Case Registry.

                         �	   Section III: Highlight of Field Offices’Best Practices
                              That May Be Adapted by Other Field Offices’to Reduce
                              SSI Unearned Income Errors


                         O th e r Paym entA ccuracy Issue s
                         Several, much broader, payment accuracy issues emerged
                         during our review that went beyond our issue team’s mission.
                         These pertain to payment accuracy in general, and not SSI
                         unearned income specifically, e.g., establishing a formal
                         agency-wide SSI policy, addressing quality assurance,
                         revisiting the impact of title II and title XVI concurrent
                         entitlement on payment accuracy, and developing a field office
                         information channel similar to Information Channel 55 at
                         Headquarters.




Payment Accuracy Task Force – SSI Unearned Income                                iv
Tab l
    e of Contents
                                                                                  Page

EXECUTIVE SUMMARY .....................................................i


INTRODUCTION................................................................ 1


FINDINGS, CONCERNS, AND RECOMMENDATIONS.... 7


�	   Section I: The Payment Accuracy Issue

     Team Recommends Ways to Improve SSI

     Unearned Income Payment Accuracy....................... 7


     Reinforce Reporting Responsibilities ............................ 7


     Provide Additional POMS Guidance About

     Gambling and Lottery Winnings and Losses ................ 8


     Include the SSI Unearned Income Report and

     Prior Payment Accuracy Task Force Reports in

     the Agency’s SSI High-Risk Tracking

     Documents and Related Reports................................ 11


�	   Section II: The Payment Accuracy Issue

     Team Recommend Modification for Two

     Recently Initiated SSI High-Risk Activities

     That Address Unearned Income Payment

     Errors ......................................................................... 11


     Adapting the SSI Unearned Income Portion of

     the April 1999 IVT for Virtual On-line Training ............ 12


     Pursuing Direct On-Line Access to State Child

     Support Enforcement Agency Records Rather

     Than Through the Federal Case Registry................... 13


�	   Section III: Highlight of Field Offices’Best

     Practices That May Be Adapted by Other Field

     Offices to Reduce SSI Unearned Income

     Payment Errors ......................................................... 15


RECAP OF RECOMMENDATIONS ................................ 18


OTHER PAYMENT ACCURACY ISSUES....................... 20

Tab le of Conte n ts (continue d )
APPENDICES

APPENDIX A -- Payment Accuracy Unearned Income Issue
             Team

APPENDIX B -- Payment Accuracy Task Force Steering
             Committee; Payment Accuracy Task Force
             Advisors

APPENDIX C -- Types of Unearned Income

APPENDIX D – SSI High Risk Activities that Address Unearned
             Income Payment Errors

APPENDIX E – SSA Key Contacts

APPENDIX F - Modernized Supplemental Security Income
             Claims System (MSSICS) -- Unearned Income
             Screens

                                  Acronyms
  CR       Claims Representative
  CSE      Child Support Enforcement
  FAV      Field Assistance Visit
  FBR      Federal Benefit Rate
  FO       Field Office
  GAO      General Accounting Office
  HHS      Health and Human Services
  IDA      Index of Dollar Accuracy
  IVT      Interactive Video Training
  MSSICS   Modernized Supplemental Security Income Claims System
  OASI     Old-Age and Survivors Insurance
  OASDI    Old-Age, Survivors and Disability Insurance
  OLCA     Office of Legislative and Congressional Affairs
  OCSE     Office of Child Support Enforcement
  ODIAP    Office of Disability and Income Assistance Policy
  ODISP    Office of Disability and Income Security Programs
  OP       Office of Policy
  OPB      Office of Program Benefits
  OQA      Office of Quality Assurance and Performance Assessment
  OIG      Office of the Inspector General
  OT       Office of Training
  SSA      Social Security Administration
  SASRO    SSA Access to State Records Online
  SSI      Supplemental Security Income
  TANF     Temporary Assistance for Needy Families
                  Paym e n tA ccuracy
                      Task For ce R e p or t:
                        SSI U n e ar n e d I n com e
I ntrod uction	        The Social Security Administration (SSA) has issued a self-
                       challenge to increase the Supplemental Security Income (SSI)
                       payment accuracy rate to 96 percent by Fiscal Year (FY)
                       2002.2, 3 This action was prompted, in part, by the General
                       Accounting Office’s (GAO) 1997 designation of SSI as a high-
                       risk program. Achieving its goal to improve payment accuracy
                       calls for an Agency commitment to identify and implement
                       policy, programmatic, and operational changes that will balance
                       SSA’s social responsibility for the Nation’s most vulnerable
                       citizens and its fiscal responsibility for safeguarding the two
                       funds administered by SSA.4


                       Paym e n tA ccuracy Task Force Initiative

                       In 1996, the Payment Accuracy Task Force Initiative was
                       created through a cooperative effort between SSA and the
                       Office of the Inspector General (OIG). Guided by an Associate
                       Commissioner-level Steering Committee, an intercomponent


                       2
                        Social Security: Performance Plan for Fiscal Year 2000 (SSA Publication
                       No. 22-001, February 1999); Social Security Management of the
                       Supplemental Security Income Program: Today and in the Future (SSA
                       Publication No. 05-10103, October 1998); Fiscal Year 1997 Index of Dollar
                       Accuracy Report (Memorandum S1KG3 from the Deputy Commissioner for
                       Finance, Assessment and Management, October 16, 1998).
                       3
                         The overall FY 1997 Index of Dollar Accuracy (IDA) SSI accuracy rate was
                       93 percent, a slight decline from the FY 1996 IDA SSI accuracy rate of 93.4
                       percent. Although the year-to-year downward trend since the early 1990s is
                       reported by the Office of Quality Assurance and Performance Assessment
                       (OQA) as not statistically significant, the overall decline is. OQA has
                       indicated that this trend is cause for concern.
                       4
                        Title II is funded by the Social Security Trust Fund; title XVI by the General
                       Revenue Fund. In December 1997, there were 2.4 million recipients who
                       were concurrently enrolled in both programs. Title II benefits are counted as
                       unearned income, therefore, miscalculation of title II benefits can result in an
                       SSI payment error.


Payment Accuracy Task Force – SSI Unearned Income                                     Page 1
                       issue team of SSA experts helps develop agency-wide
                       recommendations to reduce either Old-Age and Survivors
                       Insurance (OASI)5 or SSI payment errors.6


                       Th e Issue -- SSI Une arne d Incom e Paym e n tErrors

                       Drawing from OQA’s FY 1997 IDA report, the Steering
                       Committee chartered this issue team, its third, to specifically
                       address SSI unearned income payment errors (see Appendices
                       A and B).7 Unearned income deficiencies accounted for the
                       largest portion of 1997 IDA SSI deficiency dollars: $271 million
                       (28 percent) of $961.2 million. This is a slight increase over the
                       $266.2 million in unearned income deficiency dollars reported
                       for FY 1996.8


                       Com pl
                            e xitie s ofIdentifying Unearne d Incom e

                       SSI is a means-tested program providing cash assistance to
                       aged, blind, and disabled individuals with little income or
                       resources. SSI relies heavily on recipient self-disclosure of all
                       income sources, earned and unearned. This information is




                       5
                        At the time the Payment Accuracy Task Force Initiative was created, the
                       Steering Committee decided not to address the disability portion of the title II
                       program because of the comprehensive disability program redesign efforts
                       already underway.
                       6
                        The two prior Payment Accuracy Task Force reports were Payment
                       Accuracy Task Force: Earnings Record Issue Team (SSA/OIG, September
                       1997) and Payment Accuracy Task Force: SSI Earned Income Issue Team
                       (SSA/OIG, September 1998).
                       7
                         The third intercomponent Payment Accuracy Task Force’s unearned
                       income issue team was comprised of six members, and met from March 1 to
                       June 28, 1999.
                       8
                         Deficiencies are described by OQA as an action or inaction on the part of
                       SSA or the recipient that results in an incorrect eligibility determination, an
                       incorrect payment amount or a material change. An error is the difference
                       between what the individual should have been paid in the sample period and
                       the amount of the payment(s) made by the Agency. However, OQA
                       sometimes uses the terms “deficiency”and “error”interchangeably.


Payment Accuracy Task Force – SSI Unearned Income                                     Page 2
                       used to determine initial eligibility and benefit amounts.9 Since a
                       person’s financial situation often varies, and benefits are
                       dependent on self-reported income changes, payments are
                       highly prone to error.10

                       As compared to earned income, unearned income information is
                       much more difficult to capture. Earned income is fairly
                       straightforward, more easily understood, and more easily
                       verified. It is comprised of wages, self-employment or
                       remuneration from a sheltered workshop.

                       On the other hand, unearned income covers a broad range of
                       sources. As defined in SSA’s guidelines,11 it includes annuities,
                       pensions, and other periodic payments; alimony and support
                       payments; dividends, interests and royalties; rents; prizes and
                       awards (see Appendix C for a more detailed listing). Unearned
                       income is generally counted as income in the month it is either
                       received by the recipient, credited to his/her account or set
                       aside for the individual’s use.

                       To supplement self-reported unearned income, SSA has data
                       matching agreements with several Federal agencies to help
                       identify and verify unearned income, e.g., the Department of
                       Veterans Affairs (VA), the Office of Personnel Management
                       (OPM), the Internal Revenue Service and the Railroad
                       Retirement Board (RRB). SSA also conducts a match using the
                       Office of Child Support Enforcement (OCSE) National Directory
                       of New Hires, which contains quarterly wage and unemployment
                       compensation data. However, the data from these matches are
                       still time-delayed, affecting the accuracy of initial SSI eligibility
                       determinations and some benefit amounts. For example, the
                       VA, RRB, and OPM matches are conducted on a monthly basis



                       9
                         Initial applicants must meet SSA’s financial eligibility criteria. To qualify, an
                       individual’s countable monthly income, after exclusions, cannot exceed the
                       total current Federal Benefit Rate (FBR), which is $500 for Calendar Year
                       1999.
                       10
                         In addition to self-reported income changes, SSA conducts periodic
                       reviews or redeterminations for eligibility continuation and/or benefit
                       adjustments. For this process, a profiling system is used to identify payment
                       records likely to change. Records can be selected every year or not be
                       selected for as long as six years.
                       11
                         Program Operations Manual System (POMS) SI 00810.015 General
                       Income Rules for the SSI Program.



Payment Accuracy Task Force – SSI Unearned Income                                        Page 3
                       and the OCSE Unemployment match is done quarterly (see
                       Appendix D).


                       SSA Unearned Incom e Initiative s
                       SSA is making a concerted effort to address its SSI high-risk
                       designation. Coinciding with the Payment Accuracy Steering
                       Committee’s selection of unearned income for issue team
                       review, SSA had started a number of activities that should either
                       directly or indirectly reduce unearned income payment errors.

                       The Deputy Commissioner for Disability and Income Security
                       Programs’(ODISP) Office of Program Benefits (OPB), as the
                       Agency lead for SSA’s title XVI debit initiative, is overseeing
                       many of the SSI unearned income-related efforts listed below.
                       (See Appendix D for more detailed descriptions.)

                            �	   Increasing understanding of what constitutes
                                 unearned income -- Since January 1999, SSA has issued
                                 an unearned income program circular, revised POMS
                                 unearned income sections, conducted an interactive video
                                 training (IVT) on unearned income, and started a review of
                                 program compatibility between States’Temporary
                                 Assistance for Needy Families (TANF) and SSI.

                            �	   Assisting field office detection and verification of SSI
                                 unearned income -- Three efforts relate to improved
                                 Federal and State data matching activities. Another effort
                                 is a workgroup convened to address child support payment
                                 issues.

                            �	   Proposing a legislative change to exclude all financial
                                 interest and dividend income – The proposed change
                                 would disregard any amounts of interest or dividends
                                 earned on countable liquid resources when determining an
                                 individual’s eligibility or benefit amount.12


                       Scope and Meth od ol
                                          ogy
                       We gathered information from multiple sources to help us
                       analyze causes of SSI unearned income errors and develop

                       12
                         The Office of Legislative and Congressional Affairs (OLCA) is handling this
                       proposal.


Payment Accuracy Task Force – SSI Unearned Income                                   Page 4
                       agency-wide recommendations to improve payment accuracy.
                       Our goal was to better understand SSI unearned income
                       reporting responsibilities; field office procedures used to gather
                       and process this information; related policy that directs field
                       office procedures; and SSA initiatives that are underway to help
                       reduce SSI unearned income errors.

                       To augment the issue team’s collective SSI policy,
                       programmatic, and operational expertise, we reviewed prior
                       OIG, SSA, and GAO reports and recommendations. We also
                       reviewed 216 FY 1997 IDA SSI unearned income deficiency
                       cases, and analyzed the FY 1997 OQA data base related to the
                       case folders.13 Additionally, we made 10 site visits to field
                       offices in California, Texas, and Maryland to better understand
                       the point-of-service process and identify any service barriers or
                       best practices related to reporting/processing of unearned
                       income information.14 During April and May 1999, we
                       conducted a mixture of group discussions and one-on-one
                       interviews with 20 field office managers and 57 employees.

                       Group discussions were also held with 16 SSI recipients during
                       our California field office visits. The contacts provided insight
                       into how recipients are informed about initial and subsequent
                       unearned income reporting responsibilities.15 Further, two team
                       members accompanied OQA field staff on several visits to
                       recipients’homes in the Washington, D.C. and Baltimore,
                       Maryland areas. Also, to better understand SSI-related policy,
                       operations, and program administration, we spoke with over

                       13
                         The 216 of 262 OQA case folders reflected unearned income deficiencies
                       that were greater than or equal to $5.00. We did not receive 46 cases from
                       the FY 1997 IDA SSI sample in time for our review.
                       14
                         Nine field offices were selected based on a cross-tabulation of two criteria:
                       1) the field offices had to be within the first 125 offices having the highest
                       FY 1998 initial SSI claims clearances and 2) the field offices had to be from
                       one of the regions having the highest number of FY 1997 IDA SSI unearned
                       income payment deficiencies. The remaining field office was selected for
                       proximity to SSA headquarters and served as our pretest site.
                       15
                          This was the first Payment Accuracy Issue Team to include recipient input.
                       We decided to add this dimension while setting up our California site visits.
                       Even though we were able to get an expedited OPM clearance, we were still
                       time-constrained in selecting a random sample of recipients. Consequently,
                       we relied on a convenience sample of volunteer recipients who were either:
                       1) already at the field office while we were on-site, 2) contacted by the field
                       office prior to our visit and asked if they were willing to come into the office
                       while we were there, or 3) contacted by us prior to our visit and asked to
                       meet with us at the field office. We plan to expand our recipient
                       contact/discussions for subsequent issue teams.


Payment Accuracy Task Force – SSI Unearned Income                                     Page 5
                       30 key contacts from various SSA components, many of whom
                       gave presentations for our issue team (see Appendix E). The
                       Payment Accuracy Steering Committee representatives also
                       provided input about SSI unearned income payment errors and
                       any related activities that were currently underway.




Payment Accuracy Task Force – SSI Unearned Income                     Page 6
                       Fi n d i n gs, Con ce r n s, an d
                          R e com m e n d ation s
                       Our findings are discussed in three sections –- those related to
                       recommended activities we believe will improve SSI unearned
                       income payment accuracy; those related to concerns we have
                       regarding two of the recently initiated SSI high-risk efforts; and
                       those related to field offices’best practices that we observed
                       during our site visits. Pages 18-19 contain a recap of our
                       recommendations.


  Se ction I: Th e Paym en tA ccuracy Issue Te am R e com m e n d s
              Ch ange s to Im prove SSI Une arned Incom e Paym en t
              A ccuracy

                       To complement SSA’s recently initiated SSI high-risk efforts to
                       reduce unearned income payment errors, we have identified
                       additional changes that can be made. These involve developing
                       better mechanisms to: 1) communicate unearned income
                       reporting responsibilities; 2) process unearned income
                       information; and 3) increase awareness/usefulness of our SSI
                       unearned income report, as well as prior Payment Accuracy
                       Task Force reports.


                       R EINFO R CE R EPO R TING R ESPO NSIBILITIES

                       During our site visits, CRs generally thought most recipients
                       were fully aware of their reporting responsibilities, but that
                       recipients frequently used the excuse of not knowing the
                       requirements after a payment error had been made. We found
                       that the recipients we interviewed demonstrated knowledge and
                       understanding of their unearned income reporting
                       responsibilities. However, due to our limited recipient sample
                       size and selection, we were unable to conclude that
                       communications about reporting responsibilities do not need
                       strengthening. Since, for the foreseeable future, self-reported




Payment Accuracy Task Force – SSI Unearned Income                           Page 7

information
underpins the
SSI eligibility
and benefit
determination
process, we still
believe there are
additional steps




                         R e com m e n d ation
                                  1




Payment Accuracy Task Force – SSI Unearned Income   Page 8
that can be            replacement folder.16 Both English and Spanish versions of the
taken to               folder are available.17
reinforce
unearned               We found that not all field offices we visited used the
income reporting       recordkeepers; but, for those that did, it was highly endorsed.
responsibilities.      We also found that nearly all of them had depleted their initial
                       shipments and did not know either how or where to order more.
                       Some thought the folders would be automatically shipped to
R e m ind ing          them.
Fie ld O ffice s to
                       Specific to unearned income, we recommend that a
Use th e SSA           handout listing the types of unearned income be included
R e cordk e e pe r     in the recordkeeper or that the list be printed on the
                       recordkeeper folder itself. (See Appendix C.)
SSA’s tri-fold
recordkeeper,          In general, because we believe that the recordkeeper is a
Your                   useful aid to reinforce all reporting responsibilities, we
Supplemental           recommend field offices be reminded of the POMS
Security Income        guidance for using and distributing the folders and of the
Folder, is a           reordering process.
tangible product
that not only
reminds                PR O VID E AD D ITIO NALPO M S GUID A NCE
recipients of          ABO UT GAMBLING/LO TTER Y W INNINGS AND
their reporting
responsibilities,      LO SSES
but also
provides               During our site visits, we heard that gambling and lottery
pockets to keep        winnings are emerging as a frequently reported source of
necessary
records, e.g.,
pay stubs,
receipts, utility
bills, reporting
instructions, and
phone numbers.
Following POMS
guidance,
recordkeepers
are to be given
to initial
applicants who
are likely to be       16
determined               POMS SI 00604.110, Your Supplemental Security Income (SSI) Folder,
                       provides guidance on policy, procedures, and use of the folder.
eligible or to
recipients who         17
                         The English version, SSA-4122-FO, is a yellow tri-fold; the Spanish
request a              version, SSA-4122-F0-SP, is blue.


Payment Accuracy Task Force – SSI Unearned Income                                  Page 9
                         unearned income. This occurrence is not surprising since
                         gambling is becoming so pervasive across the United States.
                         A person can make some form of legal wager in every State,
                         except Hawaii, Utah, and Tennessee. There are now casino
                         gambling establishments in 21 States and lotteries in 37
                         States.18

                         It was not unusual to find CRs who were not aware of the
                         POMS reference about gambling and lottery winnings. This is
                         not unexpected since it is not an obvious, separate reference,
                         but rather subsumed under the POMS section on prizes.19
                         Even though this section defines prizes as something won in a
                         lottery or game of chance, and further states that such prizes
                         are unearned income, it is of little value if CRs cannot easily
                         locate the information.
 R e com m e n d ation
                         We recommend the POMS section, Prizes, be retitled as
          2
                         Gambling and Lottery Winnings and Other Prizes so CRs
                         can more easily locate instructions about properly counting
                         gambling/lottery winnings.


                         R e vising th e M od e rnize d Suppl
                                                            e m e n talSe curity Incom e
                         Cl aim s Syste m (MSSICS)Unearne d Incom e Scre e n s
                         MSSICS can be used both as an interview guide and input
                         screen during initial claims taking and determinations. It
                         includes an Income Menu (IMEN) screen that has a limited list
                         of income sources -- child support, other Bureau of Indian
                         Affairs income, sick pay (earned), sick pay (unearned), wages,
                         self-employment income, and other income or support not
                         previously mentioned (see Appendix F). Each source is to be
                         answered either “Y”or “N.” To capture specific unearned
                         income information, e.g., gambling/lottery winnings, the Income
                         Other (IOTH) screen must be accessed. This is done when a
                         CR inputs a “Y”in the “OTHER INCOME OR SUPPORT NOT
                         PREVIOUSLY MENTIONED”field on the IMEN screen. If a CR
                         fails to make an entry or inputs an “N”in this field, the IOTH
                         screen is skipped.
 R e com m e n d ation
           3


                         18
                           Report of the National Opinion Research Center at the University of
                         Chicago to the National Gambling Impact Study Commission, April 1, 1999.
                         19
                              POMS SI 00830.525. Prizes.


Payment Accuracy Task Force – SSI Unearned Income                                  Page 10
To help CRs
obtain the most
complete
unearned
income
information, we
recommend
that the IMEN
screen be
modified. We
suggest
parenthetical
information,
which


                         Suggested Change




                         Suggested Change




                         Suggested Change




Payment Accuracy Task Force – SSI Unearned Income   Page 11
includes a
reference to             Further, since gambling and lottery winnings are rapidly
gambling/lotter          becoming more commonplace, we believe the IOTH screen
y winnings, be           should also have a specific entry for this type of income.
added under              Although the current IOTH screen appears full, we believe
“OTHER                   space can be adjusted by putting the contact name and
INCOME OR                telephone number on the same line.
SUPPORT
  R e com m e nNOT
               d ation
PREVIOUSLY               We recommend modifications shown in Table 2 be made to
           4             the IOTH screen.
MENTIONED”
(see Table 1).           Table 2. Recommended Changes to the IOTH Screen
Table 1.                  MSSICS     OHER INCOME OR SUPPORT NOT MENTIONED PAGE 1 OF IOTH
Recommended                                            [1-O]
Changes to the            SSS-SS-SSSS SSSSS SSSSSSSSSS                 TRANSFER TO: XXXX
                          [2-M]
IMEN Screen               TYPE RECEIVED: 99
                          1=GIFTS                     9=WORK-RELATED UNEARNED INCOME
 MSSICS                   2=PRIZES                  10=UNSTATED INCOME
INCOME MENU               3=AWARDS                  11=UNIFORMED SERVICES SPEC PAY & ALLO
PAGE 3 OF IMEN            4=CASH      INHERITANCES 12=COUNTABLE ALASKA LONGEVITY BONUS
                          5=IN-KIND INHERITANCES    13=EXCLUDABLE ALASKA LONGEVITYBONUS
[1-O]                     6=UNSPENT DEATH BENEFITS 14=COUNTABLE ANC PAYMENTS
 SSS-SS-SSSS SSSSS        7=INSURANCE PROCEEDS      15=OTHER
SSSSSSSSSS                8=GAMBLING/LOTTERY WINNINGS
TRANSFER TO:XXXX          [3-C]
 [2-M]          [3-D]     IF TYPE IS 15
 SINCE THE FIRST          EXPLAIN: XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
MOMENT OF                 [4-M]                      [5-O]
SS/01/SSSS, HAVE          SOURCE: XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX ID: XXXXXXXXXXXX
YOU RECEIVED OR           [6-M]
EXPECT TO                 ADDRESS: XXXXXXXXXXXXXXXXXXXXXX XXXXXXXXXXXXXXXXXXXXXX
  ECEIVE                            XXXXXXXXXXXXXXXXXXXXXX XXXXXXXXXXXXXXXXXXXXXX
 INCOME IN THE NEXT       [7-O]                                                 [8-O]
14 MONTHS FROM            CONTACT: XXXXXXXXXXXXXXXXXXXXXXXXXX           PHONE: 999 999 9999
ANY OF THESE              [9-O]           [10-O]             [11-O]
SOURCES                   ANOTHER SOURCE (Y): X DELETE THIS SOURCE (Y): X REMARKS (Y): X

 Y/N
  X      CHILD
SUPPORT
  X      OTHER
BUREAU OF INDIAN
AFFAIRS INCOME
  X      SICK PAY
(EARNED)
  X      SICK PAY
(UNEARNED)
  X      WAGES
  X      SELF-
EMPLOYMENT
INCOME
  X      OTHER
INCOME OR SUPPORT
NOT PREVIOUSLY
MENTIONED
         (e.g.,GAMBL
         ING/LOTTER
         Y
         WINNINGS,
         INHERITANC
         ES, CASH
         GIFTS)




Payment Accuracy Task Force – SSI Unearned Income                               Page 12
                         INCLUD E TH E SSI UNEAR NED INCO M E
                         R EPO R T AND PR IO R PAYMENT ACCUR A CY
                         TASK FO R CE R EPO R TS IN TH E AGENCY’S SSI
                         H IGH -R ISK TR A CK ING D O CUMENTS AND
                         R ELATED R EPO R TS

                         Information about SSI high-risk activities is not centralized,
                         which made it both difficult and time-consuming for us to identify
                         the extent of SSA’s efforts to increase SSI payment accuracy,
                         particularly those related to unearned income. The SSI
                         Initiatives Tracking Report,20 which is issued monthly, was a
                         starting point, but it was not an exhaustive list. In the process of
                         our identification of existing SSA unearned income payment
                         accuracy efforts, we found that the Payment Accuracy Task
                         Force Initiative is not included in the SSI monthly tracking
                         report. Neither was it mentioned in the 1998 SSI Management
                         Report. However, for the latter, we were assured that future
                         publications would include our work after we met with OP, the
                         component responsible for producing the annual management
                         report.
 R e com m e n d ation
          5              Ensure that recommendations from this SSI Unearned
                         Income Report and prior Payment Accuracy Task Force
                         reports are included in the monthly SSI Initiatives Tracking
                         Report, subsequent SSI management reports, and other
                         information systems related to SSI high-risk efforts.


  Se ction II: Th e Paym en tA ccuracy Issue Te am R e com m e n d s
               Mod ifications for Tw o R e cen tl   y Initiate d SSI H igh -
               R isk A ctivitie s th atA d d re ss Une arned Incom e
               Paym en tErrors

                         SSA’s is aggressively taking actions to eliminate SSI’s high-risk
                         designation. We are fully supportive of these efforts; but, for
                         two of the recently initiated activities, we have some concerns
                         and recommend the following modifications.




                         20
                           SSA’s Principal Deputy Commissioner distributes the SSI Initiative
                         Tracking Report.



Payment Accuracy Task Force – SSI Unearned Income                                    Page 13

                         A d apting th e U n e arne d Incom e Portion of th e A pril19 9 9
                         IVT for VirtualO n-Line Training

                         To reinforce the recently released SSI unearned income POMS
                         rewrites and related program circular, the Office of Training and
                         the Office of Operations conducted interactive video training
                         sessions on earned and unearned income during various times
                         in April 1999. (See Appendix D.) Although we fully support the
                         IVT concept, during our site visits we heard concerns about its
                         delivery and long-term effectiveness.

                         We found varying degrees of participation, with workload and
                         access as the primary determinates for participation. Two
                         reasons most often cited for nonparticipation were that: 1) it
                         would be too disruptive to the public if the office completely
                         closed so all staff could fully participate and/or 2) the office was
                         not IVT equipped.21 In both situations, the field offices relied on
                         videotapes of the training. However, these negate one of the
                         main purposes for using IVTs, i.e., to allow immediate feedback
                         and interaction between participants and presenters. We also
                         heard a need for follow-up on-site training to reinforce what was
                         discussed during the IVT. Since there is usually a time lag
                         between the IVT and actual on-the-job application, it is difficult
                         for participants to have total recall of what was discussed.

     Concern             The SSI progam has become increasingly complex since its
                         inception. As such, we believe it is incumbent on the Agency to
                         assure staff receive the training it needs to keep abreast of
                         these changes. This is particularly applicable to the recent SSI
                         unearned income POMS rewrites.
 R e com m e n d ation
          6              We recommend, as a form of follow-up training, that the SSI
                         unearned income portion of the April 1999 IVT should be
                         adapted for on-line training via SSA’s Virtual Campus,
                         http://training.ba.ssa.gov/ot/pages/ training/.




                         21
                           Sixty-five percent of SSA’s field offices had direct IVT access at the end of
                         1998.



Payment Accuracy Task Force – SSI Unearned Income                                       Page 14
                       Pursuing D ire ct O n-Line A cce ss to State Ch il  d Support
                       Enforce m e n tA ge n cy R e cords R ath e r Th an Th rough th e
                       Fe d e ralCase R e gistry

                       We heard repeatedly during our site visits that CRs believe on-
                       line access to State data will, to a large extent, improve
                       detection of unearned income, particularly child support
                       payments. Unreported or inaccurate child support payments
                       projected to $47.6 million in FY 1997 IDA SSI unearned income
                       dollar deficiencies.22 Most of the deficiencies resulted from
                       fluctuations in the amount of child support payments and from
                       representative payees/recipients’failure to correctly report the
                       amount of child support payments. Field office deficiencies
                       primarily resulted from staff either failing to consider mailing
                       time, making incorrect calculations, or inputting changes in
                       payment amounts based on allegations.

                       One of SSA’s high-risk activities that is to purportedly help
                       reduce child-support payment errors is a legislative proposal to
                       permit access to the Federal Case Registry containing OCSE
                       State data. This information would only indicate court-ordered
                       child support. States are not required to provide data on child
                       support collections to the Federal Case Registry. As such, the
                       purposed access would not provide essential information about
                       the amount, frequency, or actual receipt of payment. These
                       three elements are the most critical for calculating timely and
                       accurate SSI benefits.

     Concern           We are not convinced that the payoff will justify the
                       administrative expense. At best, SSA could use the Federal
                       Case Registry information about child support orders to provide
                       an investigative lead or be an alert that possible unreported
                       child support exists. However, further verification of this
                       information would still require a labor-intensive pursuit by CRs.
                       To prevent over or underpayments, CRs need to know how
                       much child support is actually being received at the time
                       eligibility or benefit amounts are determined, and not after-the-
                       fact. This real-time information is not available in the portion of
                       the OCSE data base the legislative proposal is requesting.




                       22
                          Child support payments are counted as unearned income to a child and
                       are considered in determining the amount of SSI monthly payment. One-
                       third of the child support payment is excluded from the computation for SSI
                       payments made by an absent parent.


Payment Accuracy Task Force – SSI Unearned Income                                   Page 15
                         However, as reported by GAO, more detailed child support
                         information should be available under 1996-welfare reform
                         legislation.23 States were mandated to have computerized
                         statewide data systems in operation at the beginning of FY
                         1998. These systems should include: 1) States’centralized
                         child support payment collection and disbursement data
                         required for identification, receipt, and distribution of CSE and
                         non-CSE child support payments and 2) States’case registries
                         for both CSE and non-CSE cases.

                         We believe SSA has a mechanism in place that could help
                         pursue State agreements for SSA access to this more useful
                         OCSE child support information. As of August 1999, the SSA
                         Access to State Records Online (SASRO) project had
                         agreements with 31 States, and a total of 55 State agencies, to
                         provide some degree of on-line access between States and
                         SSA for such State data as human services, vital statistics,
                         unemployment compensation, wages, and workers’
                         compensation.
 R e com m e n d ation   We recommend that ODISP, as the SSA lead component for
          7              SSI High-Risk and Information Exchange activities, should
                         discuss with HHS OCSE the sufficiency of existing laws to
                         permit on-line access to State child support enforcement
                         (CSE) agency records on child support payments. If
                         sufficient, then ODISP should request that HHS OCSE issue
                         a guidance letter to the State CSE agencies to provide SSA
                         title XVI CRs with on-line single query access to such
                         records. ODISP should then request that Operations make
                         access to CSE as one of the target agencies in its SASRO
                         project. Actual costs should be minimal since SSA already
                         has a leased data line into every State capitol. Some
                         additional travel and contacts funding will be needed, e.g.,
                         to pay for screen development or secure Internet access to
                         incompatible CSEs.

                         However, if existing laws are not sufficient, we recommend
                         that ODISP should request OLCA to propose a legislative
                         initiative to address any SSA or OCSE concerns.
 R e com m e n d ation
                         At a minimum, we believe that if SSA continues to pursue
          8
                         its current legislative proposal to access the Federal Case
                         Registry of Child Support Orders, the following addendum

                         23
                           Supplemental Security Income: Increased Receipt and Reporting of Child
                         Support Could Reduce Payments (GAO/HEHS-99-11, January 1999 ).



Payment Accuracy Task Force – SSI Unearned Income                                 Page 16
                       be included: States should be required to provide data on
                       child support collections, re ce ipt, and dis tribution to the
                       Federal Case Registry.


  Se ction III: H igh l
                      igh tof Fie ld O ffice s’Be st Practice s Th atMay
                Be A d apte d b y O th e r Fie l
                                               d O ffice s to R e d uce SSI
                Une arned Incom e Paym en tErrors

                       During the course of our information gathering, we either directly
                       observed or were told about practices field offices have
                       developed for their own use to improve payment accuracy.
                       Even though we did not quantitatively measure effectiveness of
                       these practices, we believe they are useful ideas that other field
                       offices may want to consider tailoring to meet their own needs.
                       Although more broad in scope, any of these activities can be
                       used to address SSI unearned income issues. Also, we realize
                       that this is not an exhaustive list and it is only limited to the field
                       offices we visited.


                       Proactive l
                                 y Engaging in Com m unity O utre ach

                       One field office we visited used an ethnic community’s local
                       radio station to improve knowledge of SSA programs. In
                       cooperation with the local Vietnamese radio station, a CR, fluent
                       in the Vietnamese language and familiar with the Vietnamese
                       culture, answers call-in questions about all aspects of the title II
                       and title XVI programs. The segment is aired live every Friday.
                       The CR is given time during the work day to prepare for the
                       weekly radio program. The field office reports improved
                       interaction between field office staff and the Vietnamese
                       community. Purportedly, cultural sensitivity among the field
                       office staff has been heightened and an understanding of
                       expected program benefits within the community has increased.
                       The same office uses its Public Affairs Specialist to proactively
                       attend community meetings and give presentations about SSA
                       programs.

                       In another field office we visited, the manager is very active in
                       developing and maintaining community links, particularly by
                       speaking to community service organizations. Following a
                       speaking engagement, we were told the field office usually



Payment Accuracy Task Force – SSI Unearned Income                              Page 17
                       experiences an increased number of inquiries about SSI
                       eligibility and benefits.


                       Pl
                        aying SSA Inform ationalVid e otape s

                       We observed in a couple of field offices we visited that a
                       television was placed in the reception area showing SSA
                       informational tapes. Staff told us that they receive positive
                       feedback from clients viewing these tapes and that the videos
                       generate many questions. The field office manager was hopeful
                       that more videos would be released to help educate the public
                       about various aspects of SSA programs.24


                       D ispl
                            aying Program Inform ation in Language s O th e r
                       Th an English

                       Also, in several field offices, we saw program information
                       displayed in the various languages used by its client base, e.g.,
                       Vietnamese, Spanish, and Armenian. Since English is the
                       second language for the majority of recipients in these offices,
                       the translations serve as useful aids to help explain SSI
                       reporting responsibilities.


                       D e ve l oping O ngoing Partnersh ips w ith State , Local
                                                                               , and
                       Com m unity Age n cie s/Contractors to Be tte r Se rve M utual
                       Cl         e
                          ie n te l

                       One field office has designated two CRs and one service
                       representative to meet periodically with various service area
                       agencies and entities sharing mutual clientele, e.g., the
                       Salvation Army, State and local welfare agencies and their
                       contractors. These meetings help heighten SSI programmatic
                       awareness and assure that more accurate information about
                       SSI requirements is disseminated to current or future recipients.
                       Further, the field office uses a messenger service to hand carry

                       24
                          The Office of Communication’s on-line Public Affairs Resource Center
                       (PARC) has a list of public information videos, e.g., SSI: A Friend Indeed,
                       SSI Helping Kids, and Focusing on Service; employee information videos;
                       and 30-second public service announcements. These are available upon
                       field office request and the web site can be accessed through
                       http://eis.ba.ssa.gov/parc/using-visuals/ssa-videos/ssa-videos.htm.



Payment Accuracy Task Force – SSI Unearned Income                                    Page 18
                       information between the different organizations and SSA. This
                       practice increases the likelihood of expedient eligibility
                       determinations and more accurate benefit calculations.


                       O utstationing a State W e l
                                                  fare W ork e r ata LocalFie l
                                                                              d
                       O ffice

                       A State TANF representative was outstationed at one local field
                       office. This on-site contact allowed CRs to more expediently
                       and accurately detect and verify State data. It also provided
                       TANF recipients direct point-of-service contact with the State
                       agency representative. Other area field offices also used the
                       outstationed representative’s services.


                       Se n d ing Month l
                                        y R e m ind e rs to R e portAny Incom e
                       Ch ange s

                       One field office uses a monthly mailer that serves as a reminder
                       for recipients to report any income changes. It contains
                       cumulative information about prior reported changes, allowing
                       review by both the recipient and the field office. It is printed on
                       yellow paper so the recipient can easily recognize it in the mail.
                       After filling out either a change or indicating there is no change
                       for that month, the form is returned to the field office postage
                       paid. We were told that recipients rapidly learn to anticipate this
                       form and call the field office if they do not receive it when
                       expected.




Payment Accuracy Task Force – SSI Unearned Income                           Page 19
                           R e cap O f
                           R e com m e n d ation s
                           SSA has initiated numerous activities to increase the SSI
                           payment accuracy rate to 96 percent by FY 2002, some of
                           which are directly related to increasing understanding and
                           reporting of unearned income. We believe that, as the SSI
                           program is currently structured, our suggested changes, plus
                           existing SSA practices and recently initiated activities, will
                           produce SSI unearned income payment accuracy
                           improvements. The following recaps our recommendations.

                      �	    Section I -- To complement SSA’s recently initiated SSI high-
                            risk efforts, we recommend the following changes to help
                            decrease SSI unearned income payment errors:

                            1.	 Specific to unearned income, include a handout listing the
                                types of unearned income in the recordkeeper or print the
                                list on the recordkeeper folder itself. (See page 8 of this
                                report.)

                                In general, remind field offices of the POMS guidance for
                                using and distributing the recordkeeper folders and of the
                                reordering process.

                            2.	 Retitle the POMS section, Prizes, as Gambling and Lottery
                                Winnings and Other Prizes so CRs can more easily locate
                                instructions about properly counting gambling/lottery
                                winnings. (See page 9 of this report.)

                            3.	 Modify the MSSIC Income Menu (IMEN) screen by adding
                                parenthetical information, which includes a reference to
                                gambling and lottery winnings, under “OTHER INCOME
                                OR SUPPORT NOT PREVIOUSLY MENTIONED.” (See
                                page 9 of this report.)

                            4.	 Modify the MISSIC Income Other (IOTH) screen so that
                                gambling and lottery winnings can be listed under “TYPE
                                RECEIVED.” (See page 10 of this report.)




Payment Accuracy Task Force – SSI Unearned Income                             Page 20
                           5.	 Ensure that recommendations from the SSI Unearned
                               Income Report and prior Payment Accuracy Task Force
                               reports are included in the Agency’s monthly SSI Initiatives
                               Tracking Report, subsequent SSI management reports,
                               and other information systems related to SSI high-risk
                               efforts. (See page 11 of this report.)

                      �	   Section II -- To address our concerns about some of SSA’s
                           recently initiated efforts, we recommend the following changes
                           to help decrease SSI unearned income payment errors:

                           6.	 As a form of follow-up training, adapt the SSI unearned
                               income portion of the April 1999 IVT for on-line training via
                               SSA’s Virtual Campus, http://training.ba.ssa.gov/
                               ot/pages/training/. (See page 12 of this report.)

                           7.	 The Office of Disability and Income Security Programs
                               (ODISP), as the SSA lead component for SSI High-Risk
                               and Information Exchange activities, should discuss with
                               the Department of Health and Human Service’s (HHS)
                               Office of Child Support Enforcement (OCSE) the
                               sufficiency of existing laws to permit on-line access to
                               State child support enforcement (CSE) agency records on
                               child support payments. If sufficient, then ODISP should
                               request that HHS OCSE issue a guidance letter to the
                               State CSE agencies to provide SSA title XVI claims
                               representatives with on-line single query access to such
                               records. ODISP should then request Operations to make
                               access to CSE as one of the target agencies in its SASRO
                               project.

                              However, if existing laws are not sufficient, ODISP should
                              request the Office of Legislative and Congressional Affairs
                              (OLCA) to propose a legislative initiative to address any
                              SSA or OCSE concerns. (See page 14 of this report.)

                           8.	 At a minimum, if SSA continues to pursue its current
                               legislative proposal for access to the Federal Case
                               Registry of Child Support Orders, the following addendum
                               should be included: States should be required to provide
                               data on child support collections, receipt, and distribution to
                               the Federal Case Registry. (See page 14 of this report.)
                             .




Payment Accuracy Task Force – SSI Unearned Income                              Page 21
                           O th e r Pay m e n t A ccuracy
                           I ssue s
                       Several, much broader, payment accuracy issues emerged
                       during our review that went beyond our issue team’s mission.
                       These pertain to payment accuracy in general, and not SSI
                       unearned income specifically. However, we believe it is
                       incumbent upon us to mention these and to provide
                       corresponding suggestions.


                       �    Estab l
                                  ish ing a Form alSSI Pol
                                                         icy

                            We found that there was no formal SSI policy established to
                            help focus short- and long-term priorities and efforts, much
                            less to specifically address unearned income. Both GAO
                            and the Social Security Advisory Board have also identified a
                            need for improvements in SSI’s policy, program
                            management, and research agenda to make the program
                            more responsive to today’s demographic and fiscal
                            changes.25

                            SSA has begun to address these concerns, establishing an
                            Office of Policy (OP) in 1998, with a Division dedicated to
                            such income security issues as SSI. OP appointed an
                            Associate Commissioner for the Office of Disability and
                            Income Assistance Policy (ODIAP), which coincided with the
                            beginning of our issue team. When we met with the ODIAP
                            staff, they encouraged suggestions related to SSI policy
                            development, future studies, and pilot projects related to
                            improving payment accuracy.
     Sugge stion
                            We suggest that OP, as it sets it priorities and develops
                            an Agency SSI policy, use the Payment Accuracy Task




                       25
                         Supplemental Security Income: Action Needed on Long-Standing
                       Problems Affecting Program Integrity (GAO/HEHS-98-158), September
                       1998; Social Security Advisory Board’s Statement on the SSI Program (in
                       SSA’s Annual Report on SSI), May 1999.



Payment Accuracy Task Force – SSI Unearned Income                                 Page 22
                            Force’s reports, OQA’s SSI IDA and Stewardship report,
                            and the Social Security Advisory Board’s reports to help
                            identify payment accuracy priorities.26


                       �    Em ph asizing Qual   ity Assurance A s an Inte gralPartof
                            th e O pe ration Proce ss to Im prove Paym e n tA ccuracy

                            As we reviewed the issue of SSI unearned income among
                            our issue team experts, plus from our interviews with CRs
                            and other field office staff, we found a lack of emphasis on
                            quality assurance. This situation may be attributed to a
                            number of reasons, e.g., an emphasis on processing time,
                            the lack of quality feedback at the local level, the lack of
                            quality measures locally and regionally, and the absence of
                            accountability for quality.
     Sugge stion
                            In addressing SSI high-risk areas, such as unearned
                            income, the Agency should emphasize quality as an
                            integral part of the operational process. One method we
                            suggest that can help field offices develop payment
                            accuracy improvement strategies is OQA’s field
                            assistance visits (FAV). FAVs are confidential reviews
                            conducted by OQA regional staff. Field offices are
                            selected by consultation with Regional Commissioner’s
                            staff. A FAV identifies error prone areas, best practices,
                            and training needs to improve a field office’s
                            performance. Findings are discussed with office
                            management and staff, individually and in groups. All
                            feedback is confidential to the field office.27




                       26
                          The Stewardship review consists of a monthly sample selection and review
                       of a snapshot of Retirement and Survivors Insurance (RSI) and SSI cases.
                       For each sample case, OQA interviews the claimant or representative payee,
                       makes collateral contacts, as needed, and redevelops all factors of eligibility
                       for the current sample month. Findings are used to prepare an annual
                       Stewardship report for Congress and other higher monitoring authorities.
                       27
                         OQA uses information from FAVs to identify generic information on best
                       practices or problems without field office identity being compromised.



Payment Accuracy Task Force – SSI Unearned Income                                    Page 23
                            R e vie w ing th e Im pact of Titl
                                                             e II and Titl e XVI
                            Concurre n tEl          ity on Paym e n tA ccuracy 28
                                              igib il

                            Concurrent title II and title XVI eligibility produced the highest
                            number of payment errors and the most projected FY 1997
                            IDA SSI unearned income deficiency dollars, accounting for
                            a projected $55.4 million in our sample cases. These
                            resulted from an initial title II monthly benefit being paid
                            during the month an SSI payment was received. As an
                            example, a person receives his/her SSI payment of $500 on
                            the first of the month and then receives an initial title II
                            benefit of $800. Later that month, s/he becomes SSI
                            ineligible due to excess income and has a $500
                            overpayment. Although SSA administers both programs, it
                            currently has no procedural or systemic processes to avoid
                            these deficiencies.

                            We are aware that this issue has been an ongoing concern
                            for the Agency, and that much dialogue has taken place
                            about this issue. However, we strongly believe that the
                            issue team would be remiss if we did not include this issue in
                            our report, especially since title II and title XVI concurrent
                            entitlement payment errors continue to adversely impact
                            payment accuracy.
     Sugge stion
                            In light of the Agency’s goal to achieve 96 percent
                            payment accuracy by Fiscal Year 2002, and since this
                            payment category produces a high number of payment
                            errors, we believe it is still beneficial for the Agency to
                            revisit this issue, and to strive for a way to address
                            these errors.


                       �    D e ve l
                                   oping a Fie ld O ffice Inform ation Ch annel
                            Sim il ar to Inform ation Ch annel55 in H e ad q uarte rs

                            In our Best Practices section of this report, we highlighted
                            the use of videos to convey program information to
                            recipients as they waited in the reception area for their




                       28
                         We realize that this issue is within the scope of SSI unearned income, but
                       we believe it is better discussed in this section of the report.


Payment Accuracy Task Force – SSI Unearned Income                                   Page 24
                            appointments. One of the drawbacks mentioned was the
                            lack of relevant videos. Another disadvantage, especially for
                            field offices with limited or with no separate reception area,
                            was that the volume is disruptive during recipient interviews.

     Sugge stion            An alternative vehicle to disseminate information could
                            be the development of a field office information channel
                            similar to Information Channel 55 used in Head-
                            quarters.29 A television monitor would be stationed in
                            the field office reception area to silently scroll
                            information regarding SSA programs. For example, a
                            list of SSI unearned income could periodically be
                            scrolled across the screen.

                            A possible link could be through SSA’s IVT facilities that
                            already has hook-ups with approximately 800 field
                            offices, DDSs, and OHA offices. There are currently
                            plans to connect another 700 offices. With minimal
                            cost, a co-axel cable could be run from the IVT monitors
                            to a separate television monitor in the reception area.
                            This system would supplement or replace videos and
                            would allow field offices to have access to a central
                            broadcast station.




                       29
                          In June 1999, SSA began broadcasting on Information Channel 55. This
                       electronic information system disseminates employee information via
                       television sets strategically located throughout the main headquarters
                       complex.


Payment Accuracy Task Force – SSI Unearned Income                               Page 25
                       Appendice s





Payment Accuracy Task Force – SSI Unearned Income
                       A ppe n d ix A
Paym ent
                            Permanent Team Members
A ccuracy
Une arne d             �	   O ffice of th e Inspe ctor Ge n e r al
                                                                 /O ffice ofA ud it
Incom e                     Carolyn Neuwirth, Deputy Director
                            Evan Buckingham, Program Analyst
Issue Te am
                             Members Detailed to Team


                       �    D e puty Com m issioner for Disabil
                                                              ity and Incom e
                            Support Program s/O ffice of Program Be n e fits Pol
                                                                               icy
                            Patti Gavin, Social Insurance Specialist, Headquarters

                       �    D e puty Com m issioner for O pe rations/Norw al
                                                                           k,
                            Connecticut Fie ld O ffice
                            Daniel Perrotta, Claims Representative

                       �	   D e puty Com m issioner for Finance , Asse ssm e n tand
                            Manage m e n t/O ffice of Quality Assurance and
                            Pe rform ance A sse ssm e n t
                            Janice Slattery, Social Insurance Specialist, Headquarters

                       �    D e puty Com m issioner for O pe rations/Cl
                                                                      ifton, Ne w
                            Je rse y Fie l
                                         d O ffice
                            Janet Stein-Pezza, Operations Supervisor




Payment Accuracy Task Force – SSI Unearned Income                                A-1
                        A ppe n d ix B
Paym ent               Daniel Devlin, Acting Inspector General for Audit, Office of
                              Inspector General, Chairperson of the Steering
A ccuracy                     Committee
Task Force             Ernestine Durham, Director, Division of Operations
                              Management, Office of Public Service and Operations
Ste e ring	                   Support, Office of the Deputy Commissioner for
                              Operations
Com m itte e           M aril
                            yn O ’Conne l l, A s s ociate Com m is s ione r, Office of
                              Program Benefits, Office of the Deputy Commissioner for
                              Disability and Income Security Programs
                       Mark Nadel, Associate Commissioner, Office of Disability and
                              Income Assistance Policy, Office of Policy
                       Thomas Evans, Associate Commissioner, Office of Quality
                              Assurance and Performance Assessment, Office of the
                              Deputy Commissioner for Finance, Assessment, and
                              Management
                       Vince Sanudo, Deputy Associate Commissioner, Office of
                              Communications Planning and Technology, Office of the
                              Deputy Commissioner for Communications
                       Kelly Croft, Director, Office of Workforce Analysis, Office of the
                              Deputy Commissioner for Human Resources
                       Pete Herrera, Associate Commissioner, Office of
                              Systems Requirements, Office of the Deputy
                              Commissioner for Systems
                       Virginia Baker, Social Insurance Specialist for OASI Benefits,
                              representing the Office of the Deputy Commissioner for
                              Legislation and Congressional Affairs
                       Pat Sasse, Analyst, representing the Office of Strategic
                              Management, Office of the Principal Deputy
                              Commissioner


                              *Some persons listed above were designated representatives of their
                               respective Associate Commissioners or of their component’s
                               equivalent to the Associate Commissioner.




Payment Accuracy Task Force – SSI Unearned Income                                    B-1
                                              Appendix B (continue d )
Paym ent               �	   O ffice of th e Inspe ctor Ge n e r al
                            Scott Patterson
A ccuracy

Task Force             �    O ffice of Qual
ity A ssurance an d Pe rform ance
                            A sse ssm e n t
A d visors	                 John Culverhouse
                            Robert Marks

                       �    O ffice of Le gisl
                                             ation and CongressionalA ffairs
                            Sarah Rocklin

                       �	   O ffice of Syste m R e q uire m e n ts
                            Bonnie Beard

                       �    O ffice ofW ork force A n al
                                                       ysis
                            Shelia Somerville




Payment Accuracy Task Force – SSI Unearned Income                               B-2
                      A ppe n d ix C
Type s of              �
                       �
                           Title II Benefits
                           Black Lung Benefits
Une arne d             �   Office of Personnel Management Benefits (Civil Service and Federal
                           Employee Retirement System)
Incom e                �
                       �
                           Railroad Retirement Benefits
                           Unemployment Insurance Benefits
                       �   Worker’s Compensation
                       �   Military Pensions
                       �   Veterans Administration
                           • Pensions
                           • Compensation
                           • Educational Assistance
                           • Aid and Attendance Allowance
                           • Clothing Allowance
                           • Payments Adjusted for Unusual Medical Expenses
                           • Payments to Vietnam Veterans’Children with Spina Bifida
                           • Insurance Payments
                           • Allotments and Augmentations
                           • Burial Benefits
                       �   Temporary Assistance for Needy Families
                       �   Emergency Assistance under title IV-A
                       �   Other Needs Based Payments (administered by State and local
                           governments or private organizations)
                       �   Foster Care Benefits
                       �   Adoption Assistance
                       �   Child Care Payments
                       �   Child Support
                       �   Alimony/Spousal Support
                       �   Grants/Scholarships/Fellowships
                       �   Department of Education or Bureau of Indian Affairs Involvement
                       �   Dividends/Interest
                       �   Rental Income
                       �   Royalties
                       �   Awards
                       �   Prizes
                       �   Lottery/Gambling Winnings
                       �   Gifts
                       �   Payments under the Job Training Partnership Act
                       �   Job Corps Payments
                       �   Americorps and National Civilian Community Corps payments
                       �   Military Pay and Allowance
                       �   Sick Pay (unearned)
                       �   Death Benefits
                       �   Proceeds of Life Insurance Policies
                       �   Lump Sum Death Payment (LSDP)
                       �   Inheritances
                       �   Cash or Gifts (given by others to help out with expenses related to the
                           death)
                       �   Low Income Energy Assistance




Payment Accuracy Task Force – SSI Unearned Income                                        C-1
                                           Appendix C (continue d )
                       �   Home Energy Assistance/Support and Maintenance Assistance

                       �   Action Programs/Domestic Volunteer Services

                       �   Payments from Community Service Block Grants

                       �   Disaster Assistance

                       �   Federal Emergency Management Administration’s Emergency Food

                           Distribution and Shelter Programs
                       �   Federal Housing Assistance
                       �   Federally Administered Food Programs
                       �   Programs for Older Americans
                       �   Refugee Assistance
                       �   Relocation Assistance
                       �   Victims’Compensation Payments
                       �   Payments to Victims of Nazi Persecution
                       �   Austrian Social Insurance Payments
                       �   Japanese-American and Aleutian Restitution Payments
                       �   Netherlands Act on Victim of Persecution (WUV)
                       �   Agent Orange Settlement Payments
                       �   Radiation Exposure Compensation Trust Fund Payments
                       �   Payments to Native Americans




Payment Accuracy Task Force – SSI Unearned Income                                C-2
                       A ppe n d ix D
SSI H igh -            R EINFO R CING KNO W LED GE O F
R isk                  UNEAR NED INCO M E
A ctivitie s           Issuing an Unearne d Incom e Program Circul
                                                                 ar
Th at
A d d re ss            On January 14, 1999, the Office of Program Benefits (OPB)
                       released SSI Program Circular SSI Error Prevention: Unearned
Une arne d             Income POMS Noncompliance 02-99-OPB. It contains tips and
                       reminders to prevent unearned income payment errors on such
Incom e                topics as unemployment insurance, child support payments, and
Paym ent               income based on need. The program circular was mailed to
                       field offices and is also available on SSA’s web site,
Errors                 http://policynet.ba.ssa.gov.


                       R e vising Program O pe rations ManualSyste m (PO M S)
                       Unearne d Incom e Se ctions

                       In April 1999, a POMS transmittal on unearned income,

                       SI 00830.000 Transmittal Number 80, was released to provide

                       clearer and more helpful instructions in support of SSA’s efforts

                       to improve SSI payment accuracy.1 It includes clarifications in

                       such areas as child support, SI 00830.420; gifts, SI 00830.520

                       and SI 00830.521; and Temporary Assistance for Needy

                       Families (TANF), SI 00830.403. It also includes a new section

                       on State disability payments, SI 00830.250. POMS is available

                       in hard copy, on CD-ROM, and at SSA’s web site,

                       http://eis.ba.ssa.gov/OP_Home/ policy.html.2





                       1
                        SSI high-risk POMS rewrites were recommended in November 1998 by the
                       SSA Tri-Regional Workgroup, which was established by the Deputy
                       Commissioner of Operations in 1997 to help improve SSI payment accuracy.
                       The workgroup gradually expanded to include all regions.
                       2
                           There is an underscore between the OP and Home, i.e., OP_Home.


Payment Accuracy Task Force – SSI Unearned Income                                    D-1
                                              Appendix D (continue d )

                       Conducting Inte ractive Vid e o Training on Unearned
                       Incom e

                       To clarify the POMS changes and the new program circular, the
                       Office of Training (OT) and the Office of Operations conducted
                       interactive video training (IVT) sessions on earned and
                       unearned income during April and June 1999. The Title XVI
                       High Risk IVT Broadcast on Unearned Income included tips and
                       reminders about unemployment compensation, child support,
                       foster care and adoption assistance, income based on need,
                       and gifts. Each session concluded with a question and answer
                       period. These questions, plus those received after the training,
                       are posted on OT’s web site, http://training.ba.ssa.gov/ot/.


                       Stud y ing State Te m porary A ssistance for Ne e d y Fam il
                                                                                  ie s
                       (TANF)an d SSI Program Com patib il      ity

                       Public assistance based on need projected to $24.6 million in
                       FY 1997 IDA SSI unearned income dollar deficiencies
                       These payment errors were related to Aid to Families with
                       Dependent Children (AFDC) benefits.3 Although the AFDC
                       program was replaced in 1996 with TANF, similar payment
                       errors will persist.4 SSA still needs to rely on self-reported
                       receipt or termination of TANF benefits when determining SSI
                       eligibility and calculating proper payment amounts. Prior to
                       1996, Federal law prohibited a claimant from concurrent
                       entitlement to AFDC and SSI. The Federal law authorizing
                       TANF contains no such prohibition.



                       3
                         Field office deficiencies resulted from staff failing to verify termination of
                       AFDC benefits and/or incorrectly calculating the monthly SSI payment.
                       There were two reasons an incorrect calculation was made. Either the
                       number of AFDC payments received per month was entered incorrectly or
                       the claimant’s share of the AFDC payment was apportioned incorrectly.
                       Other deficiencies that occurred were a claimant being verbally misinformed
                       by the state about his/her need to report AFDC benefits or a
                       claimant/representative payee failing to report unearned income.
                       4
                        The terms and acronyms AFDC and TANF are often used interchangeably
                       by the States and within SSA.


Payment Accuracy Task Force – SSI Unearned Income                                           D-2
                                          Appendix D (continue d )
                       Since States have full authority to manage their own TANF
                       program, it varies from State-to-State. These differences make
                       it more difficult for SSA to verify receipt or termination of TANF.
                       Without this capability, inaccurate payments are highly
                       probable.

                       To better understand TANF’s effect on the SSI program, SSA’s
                       Offices of Program Benefits (OPB) and Operations began a
                       cooperative study in August 1999. This review examines
                       various State TANF programs to determine the details of State
                       plans; analyze differences and similarities; and identify any
                       needed changes in policy/practice.


                       FO UR SSI H IGH -R ISK A CTIVITIES H ELP

                       D ETECT AND VER IFY UNEA R NED INCO M E


                       Mak ing More Fre q ue n tD ata Match e s w ith O th e r Fe d e r al
                       A ge n cie s

                       SSA has recently enhanced its Federal data matching activities
                       in an effort to more accurately and timely identify unearned
                       income. Beginning in September 1999, the data match with the
                       Veterans Administration (VA) will be conducted monthly rather
                       than bimonthly. This increased frequency is especially critical
                       since undetected or inaccurate VA compensation or pension
                       benefits projected to $41.8 million FY 1997 IDA SSI deficiency
                       dollars.

                       In October 1998, SSA began making the Unemployment
                       Compensation Match with the Office of Child Support
                       Enforcement’s (OCSE) National Directory of New Hires on a
                       quarterly rather than biannual basis. It includes all States,
                       whereas, previously only 42 States participated. Further, it is
                       completed in a single operation rather than State-by-Sate.
                       These changes should help reduce unemployment insurance
                       payment errors, which projected to $29.6 million FY 1997 IDA
                       SSI deficiency dollars. Also, beginning in September 1999,
                       Railroad Retirement Board and Office of Personnel
                       Management (OPM) data matches will be conducted monthly,



Payment Accuracy Task Force – SSI Unearned Income                               D-3
and the pension
match with the
Department of
Defense will be
done quarterly.




Payment Accuracy Task Force – SSI Unearned Income   D-4
                                          Appendix D (continue d )
                       Estab l
                             ish ing O n-Line A cce ss to State D ata

                       In addition to Federal data matching agreements, SSA has
                       developed the SSA Access to State Records Online (SASRO)
                       project to provide on-line access between States and SSA. In
                       particular, SSA has access to such State data as human
                       services, vital statistics, unemployment compensation, wages,
                       and workers’compensation. As of August 1999, there are 31
                       States, with a total of 55 State agencies, participating at varying
                       degrees in SASRO. SSA has a marketing team aggressively
                       pursuing further State agreements.


                       Proposing a Le gisl
                                         ative Ch ange for O CSE Ch il
                                                                     d Support
                       Inform ation

                       One of SSA’s high-risk activities is a legislative proposal to
                       permit access to the Federal Case Registry of Child Support
                       Orders. This link will indicate court-ordered child support.
                       However, it will not provide information about the amount,
                       frequency, or actual receipt of payment.


                       Ch arte ring an Inte rcom ponentCh i l
                                                            d SupportW ork group

                       An intercomponent workgroup focusing on child support issues
                       was chartered in November 1998 and is chaired by OPB. It is
                       charged with identifying on-going SSA activities to address child
                       support payments. The workgroup also recommends additional
                       actions SSA should take to ensure child support is being
                       properly reported and accounted for in determining monthly SSI
                       benefit payments.




Payment Accuracy Task Force – SSI Unearned Income                               D-5
                                          Appendix D (continue d )

                       PR O PO SING A LEGISLATIVE CH ANGE TO

                       EXCLUD E CER TAIN INTER EST AND

                       D IVID END INCO M E

                       SSA is proposing a legislative change to exclude all interest and
                       dividend income earned on countable liquid resources when
                       determining an individual’s eligibility or benefit amount. The
                       proposed modification would also change the infrequent and
                       irregular unearned income exclusion to $60 per quarter rather
                       than the current $20 per month, which can only be excluded
                       once during a quarter. Amending the law would restore the
                       original intent of the Social Security Act, which allowed a $60
                       per quarter exclusion.




Payment Accuracy Task Force – SSI Unearned Income                             D-6
                                 Appendix E


SSA Key
               Office of Automation Support
                       William Gray
                                                      Office of Quality Assurance and
                                                      Performance Assessment
Contacts
              Kenneth Walsh                  John Culverhouse
                                                      Gary Greene
                       Office of Communications and   Ellen Lesniewski
                       Planning Technology            Norman Linden
                       Rusty Toler                    Phil Young

                       Office of External Affairs     Office of Systems Requirements
                       Ronald Collier                 Bonnie Beard
                       Charles Fosler                 Eddie Howard

                       Office of General Counsel      Office of Telephone Services
                       Hedy Gordon                    Renee Lockhart
                       Lisa Rayo
                                                      Office of Training
                       Office of Information          Margaret Rawls
                       Management
                       Marci Sturgill                 Office of Workforce Analysis
                                                      Leonard Ross
                       Office of Legislation and
                       Congressional Affairs          Regional Offices
                       Sarah Rocklin                  William Casey
                                                      Robert Rush
                       Office of Policy
                       Pamela Mazerski
                       Mark Nadel

                       Office of Program Benefits
                       Kenneth Brown
                       Renee Parent

                       Office of Program Support
                       Peter Monaghan

                       Office of Publications and
                       Logistics Management
                       Frederick Brickencamp
                       Elizabeth Davidson
                       Craig Hartsen

                       Office of Public Service and
                       Operations Support
                       Maurice Norwood




Payment Accuracy Task Force – SSI Unearned Income                              E-1
                       Appendix F

Mod e rnize d          MSSICS is used to obtain applicant information during the
                       Supplemental Security Income (SSI) initial claims and
Suppl   e m ental      redetermination processes. Sections in MSSICS are application
Se curity              data (age, disability, residency, alien status, citizenship), living
                       arrangements, resources, income (earned and unearned) and
Incom e                other potential benefits.
Cl aim s
Syste m                In the income section (I), categories are generalized under the
                       Income Menu (IMEN) screen, which shows each category of
(MSSICS)–              income for recipients and their eligible or ineligible spouses,
Unearned               mothers and fathers, and other family members whose income
                       affects SSI payments.
Incom e
Scre e n s	            Except as noted, income is counted in the second month after
                       receipt, unless it caused ineligibility in the month received.
                       Automatic interfaces already in place allow updating for
                       individuals shown on the Supplemental Security Record
                       (recipient or spouse) who directly receive the income. Updating
                       does not occur for other family members or individuals paid
                       indirectly. An affirmative response for a category would
                       generate a more specific income screen. Specific information for
                       each screen can be found in Modernized Systems Operations
                       Manual (MSOM), Chapters 131, 132, 134 and 136. The
                       screens, in the order that they appear, are:

                       �	   State or Local Assistance Based on Need (ISLA) - all public
                            assistance received other than Temporary Assistance to Needy Families
                            (TANF), a program previously classified as Public Assistance Based On
                            Need (PABON), Aid to Families with Dependent Children (AFDC/ADC) or
                            Income Based On Need (IBON). The income documented on this
                            screen is generally not counted against SSI payments.

                       �	   Refugee Cash Assistance Payment (IRFG) - refugee payments to
                            Cubans, Haitians and other federally funded General Assistance
                            payments to refugees. This income is counted when received and is
                            based on the portion of the family grant amount attributable to the SSI
                            recipient.

                       �	   Aid to Families with Dependent Children (IADC) - payments under the
                            federally funded Aid to Families with Dependent Children (AFDC)
                            program. These payments have been replaced by Federal




Payment Accuracy Task Force – SSI Unearned Income                                         F-1
                                                 Appendix F(continue d )
                            Bl ock Grants to State s . A FD C w oul   d norm al ly include al lq ual ifie d
                            m e m be rs of a h ous e h old, but w ould be re duce d if a m e m be r of th e
                            h ous e h old be cam e e ligible for SSI. Th is incom e is counte d w h e n
                            re ce ive d and is bas e d on th e portion of th e fam ily grant am ount
                            attributabl  e to th e SSIre cipie nt.

                       �	   General Assistance from Bureau of Indian Affairs (IBIA) - family grant
                            amounts paid to families by Bureau of Indian Affairs. This income is
                            counted when received and is based on the portion of the family grant
                            amount attributable to the SSI recipient.

                       �	   Disaster Relief (IDIR) - any disaster relief assistance received; generally
                            not counted against SSI payments.

                       �	   Department of Veterans Affairs Based on Need (IVAE) – needs-based
                            VA benefits, including amounts received for dependents.

                       �	   Social Security (ISSA) - current, past or pending Old-Age, Survivors,
                            and Disability Insurance benefits are input manually or automatically
                            detected through the Social Security Record/Master Beneficiary Record
                            (SSR/MBR) interface operation.

                       �	   Other Income Based on Need (IIBN) - Title IV-E Foster Care and
                            Adoption assistance and private needs-based assistance, as well as
                            income that can be excluded by statute or policy.

                       �	   Black Lung (IBLG) - Department of Labor payments and SSA payments
                            under Part B and Part C, the Black Lung provisions, are input manually
                            or automatically detected through the SSR/MBR interface operation.

                       �	   Railroad Board Benefits (IRRB) - annuity, augmented annuity,
                            sickness, strike benefits, and unemployment paid under the Railroad
                            Retirement Act are input manually or automatically detected through the
                            SSR/RRB interface.

                       �	   Department of Veterans Affairs Not Based on Need (IVAC) -
                            parenthetically described as “paid directly or indirectly as a dependent,,
                            are input manually or automatically detected through the SSR/MBR
                            interface operation. Includes compensation, pension, educational
                            benefits, life insurance and disability insurance payments.

                       �	   Office of Personnel Management (IOPM) - any annuity paid through
                            OPM is input manually. Cost-of-Living Adjustments are automatically
                            detected through the interface operation.

                       �	   Pension Income (IPEN) - military, State, local, private retirement, private
                            disability, union retirement, union disability, foreign government, foreign
                            private, insurance disability, annuity, and Federal non-OPM pensions.

                       �	   Unemployment Compensation (IUEM) - unemployment insurance paid
                            under State or local unemployment compensation laws.



Payment Accuracy Task Force – SSI Unearned Income                                                F-2
                                               Appendix F(continue d )
                       �	   Workers’Compensation (IWCP) - workers’compensation paid through
                            Federal, State or private plans.

                       �	   Interest Income (IINT) - directly related to various resource screens.
                            Allegations of certain types of resources result in possible income to the
                            recipient from the same source (i.e., a savings account could be both a
                            resource and provide income to the recipient in the form of interest). On
                            the resource screens where ownership of a resource could provide
                            income, certain entries are pre-filled on the income screens. Special
                            conditions result in information from the resource data being pre-filled to
                            the income screen. Interest income can be shown as received from
                            checking, savings, credit union, Christmas club or individual Indian
                            money accounts, time deposits and other interest income sources.

                       �	   Dividends (IDIV) - stocks and bonds resource screen responses on
                            dividends corresponds to this income screen. This includes dividend
                            income from stocks, bonds, mutual funds or any other resource.

                       �	   Royalties/Honoraria – Unearned (IROY) - used to document any
                            royalties/honoraria that the recipient receives that are counted as
                            unearned income. If they are determined to be earned, they are shown
                            as wages (see IWAG screen below).

                       �	   Rental/Lease Income - Not From a Trade/Business (IRLI) - this screen
                            is used to document rental/lease income. Rental expenses are also
                            documented on this screen. In order for the system to calculate the net
                            rent countable against the SSI payments, monthly amounts of expenses
                            and income must be manually computed. This screen will not prorate
                            excess rental expenses, and amounts entered as expenses are not
                            deducted from the gross income.

                       �	   Alimony (IALI) – court-ordered or voluntary alimony or support to the
                            person.

                       �	   Child Support (ICHS) – court-ordered or voluntary child support
                            payments. MSSICS will automatically determine if the individual is
                            eligible for the one-third child support exclusion based on information in
                            the MSSICS pending file. If not eligible for the one-third exclusion,
                            MSSICS will determine the correct amount and type of income to be
                            counted.

                       �	   Other Bureau of Indian Affairs Income (IOIA) - Bureau of Indian Affairs
                            income (other than general assistance) that the person receives. Adult
                            Custodial Care (ACC) assistance and Child Welfare Assistance (CWA)
                            payments that the person receives when not institutionalized are entered
                            on this screen. ACC and CWA payments made to an institution on
                            behalf of an institutionalized recipient are entered on the ISM screen.




Payment Accuracy Task Force – SSI Unearned Income                                           F-3
                                               Appendix F(continue d )
                       �	   Sick Pay - unearned (ISPU) - sick pay charged as unearned income.
                            Any payment of sickness and accident disability paid more than 6
                            months after work stopped, or paid within 6 months after stopping work
                            and attributable to employee’s own contribution.

                       �	   Sick Pay - earned (ISPE) - sick pay charged as earned income. Any
                            payment of sickness and accident disability paid within 6 months after
                            stopping work and not attributable to employee’s own contribution.

                       �    Wages (IWAG) – wages.

                       �    Self-employment Income (ISEI) - self-employment income.

                       �	   Other Income or Support Not Mentioned (IOTH) - includes all other
                            forms of income, including gifts, prizes, awards, cash inheritances, in-
                            kind inheritances, unspent death benefits, insurance proceeds, work-
                            related unearned income, unstated income, uniformed services special
                            pay and allowances, countable Alaska longevity bonus, excludable
                            Alaska longevity bonus, countable Alaska Native Claims (ANC)
                            payments, or other income.




Payment Accuracy Task Force – SSI Unearned Income                                         F-4
